HHS/OIG, Audit -"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title
IV-D Children in Michigan Under the State Children Health Insurance Program,"(A-05-02-00076)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title IV-D Children in
Michigan Under the State Children Health Insurance Program," (A-05-02-00076)
August 23, 2004
Complete
Text of Report is available in PDF format (971 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Michigan has an opportunity to increase enrollment in the State Children’s
Health Insurance Program (SCHIP) and have noncustodial parents pay a portion of the associated costs.  Based on a
statistical sample, we estimated that 96,948 Title IV-D children would have been eligible to receive SCHIP benefits during
the period May 1, 2001 through April 30, 2002.  The noncustodial parents of 22,722 of these children could have contributed
$9.8 million toward the $22.5 million in costs that would have been incurred if the children had been enrolled.  For
those children already enrolled, we determined that 2,176 received SCHIP managed care benefits and 413 of these children
had noncustodial parents who could have contributed $168,345 toward the $289,188 in SCHIP premiums paid on behalf of their
children.  We recommended that Michigan take steps to recover SCHIP premiums from noncustodial parents with medical
support orders and the ability to pay for their dependent children.